TN

C@OCKLE

2311 Douglas Street :
Omaha, Nebraska 68102-1214 Le ga 1B riefs
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No.
YUNG-KAI LU,
Petitioner,
vs.
UNIVERSITY OF UTAH, et al.,
Respondents.
AFFIDAVIT OF SERVICE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 27th day of January, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
DAVID J. HOLDSWORTH
9125 S. Monroe Plaza Way, Suite C
Sandy, UT 84070
(801) 352-7701
Fax: (801) 567-9960
david_holdsworth@hotmail.com

Counsel for Petitioner Yung-Kai Lu

Subscribed and sworn to before me this 27th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

crane 6 Elle Quid h, Chk

My Commission Expires Nov 24, 2020

Notary Public

 

39392
SERVICE LIST

Phyllis J. Vetter

General Counsel and Vice President
Office of General Counsel

201 Presidents Circle, Room 309
Salt Lake City UT 84112
801-585-7002
phyllis.vetter@legal.utah.edu
